HHS/OIG, Audit - "Review of Rehabilitation Services at Gulf
Health Care, Texas City, Texas," (A-06-03-00078)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Rehabilitation Services at Gulf
Health Care, Texas City, Texas," (A-06-03-00078)
July 13, 2007
Complete Text of Report is available in PDF format (3.1 mb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review
was to determine whether the services on rehabilitation claims paid to Gulf
Health Care Center (Gulf) of Texas City, Texas, were medically necessary
and adequately supported by medical documentation.  Of the 100 claims
sampled, Gulf submitted 69 claims that did not meet Medicare requirements.
Based on our sample results, we estimate Medicare overpaid Gulf at least
$671,456 for services that did not meet Medicare requirements.  We
recommended that Gulf refund to the Medicare program $671,456
in overpayments for
improperly paid rehabilitation claims, ensure that future rehabilitation claims
comply with Medicare requirements on medical necessity, strengthen its
procedures to ensure that all Medicare claims are supported by adequate medical
documentation, and work with the fiscal intermediary to determine the amount of
overpayments made subsequent to our audit period.  Gulf disagreed with our
findings.